February 27, 2001

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:	 Contracting Practices for the Procurement of Mail Transport Equipment
          Services (Audit Report Number CA-AR-01-001)

This report presents the results of our review of the Postal Service's contracting
practices used in the procurement of mail transport equipment services (Project Number
99PA024TR000). We conducted the review as part of the Office of Inspector General’s
(OIG) audit of the progress of mail transport equipment service centers in meeting
performance and financial goals outlined in the Postal Service’s Decision Analysis
Report for the project.

The audit revealed that the Postal Service awarded three noncompetitive contracts,
under which it may pay up to $53 million more than it will for competitive contracts
awarded for the same or similar levels of service. In addition, the three noncompetitive
contracts were initially awarded as letter contracts, which potentially exposed the Postal
Service to more performance and cost risks than other forms of contracting.
Furthermore, Postal Service contracting officials did not define the cost and
performance expected under the contracts within the six months required by Postal
Service procurement policy. Instead the letter contracts were not definitized until 3 to
12 months beyond the180-day time frame. The audit also disclosed that a Postal
Service senior manager had been directing contractors to perform work without the
required contracting authority. To correct the issues identified in the report, we provided
nine recommendations, which could save the Postal Service almost $11 million in
contract costs. Management generally agreed with all nine recommendations, but did
not agree with all of our findings. We evaluated management’s comments and believe
we have presented a fair representation of contracting practices used by the Postal
Service to procure mail transport equipment services. Management’s comments and
our evaluation of these comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Hermeta Martin-Reddon, acting director,
Contracts, or me at (703) 248-2300.



Billy Sauls
Assistant Inspector General
 for Business Protection

Attachment

cc: John R. Gunnels
Contracting Practices for the Procurement                          CA-AR-01-001
 of Mail Transport Equipment Services


                                   TABLE OF CONTENTS

Executive Summary                                                      i

Part I

Introduction                                                          1

   Background                                                         1

   Objective, Scope, and Methodology                                  2

   Prior Audit Coverage                                               2


Part II

Audit Results                                                         4


   Noncompetitive Contract Awards                                     4

   Recommendations                                                    6
   Management’s Comments                                              6

   Evaluation of Management’s Comments                                6


    Use of Letter Contracts                                           10 

    Recommendations                                                   10
    Management’s Comments                                             10 

    Evaluation of Management’s Comments                               11 


    Unauthorized Commitments                                          12 

    Recommendations                                                   14
    Management’s Comments                                             14 

    Evaluation of Management’s Comments                               14 


Appendix A. Prior Audit Coverage                                      16 

Appendix B. Mail Transport Equipment Service Center Program Cost      18 

            Summary Basic Contract (Years Four and Five) 

Appendix C. Management’s Comments                                     20 

Contracting Practices for the Procurement                                                           CA-AR-01-001
 of Mail Transport Equipment Services


                                      EXECUTIVE SUMMARY
    Introduction 	                 This audit report presents the results of our audit of the
                                   Postal Service's contracting practices in the procurement of
                                   mail transport equipment services (Project Number
                                   99PA024TR000). We conducted the audit as part of the
                                   Office of Inspector General’s (OIG) assessment of the
                                   progress of mail transport equipment service centers in
                                   meeting the performance and financial goals outlined in the
                                   Postal Service’s Decision Analysis Report for the project.
                                   This report is the third1 in a series of reports resulting from
                                   our audit of mail transport equipment service centers, which
                                   was initiated at the request of the Board of Governors.

    Results in Brief 	             Our audit determined that the Postal Service awarded three
                                   noncompetitive contracts, under which it may pay up to
                                   $53 million more than it will for competitive contracts
                                   awarded for the same or similar level of service. According
                                   to data in the contract files, the noncompetitive contracts
                                   were awarded, in part, to compensate a contractor for
                                   preparing the statement of work used to award other
                                   competitive contracts for the mail transport equipment
                                   service center project. However, we found that the
                                   justification for noncompetitive contract awards did not fully
                                   meet Postal Service requirements. In addition, the
                                   noncompetitive contracts were awarded as undefinitized
                                   letter contracts, which potentially exposed the Postal
                                   Service to cost and performance risks.2 Due to inadequate
                                   staffing, these contracts were not definitized until
                                   3 to12 months beyond the 180-day time frame required by
                                   the Postal Service Purchasing Manual.

                                   Finally, the review disclosed that a Postal Service senior
                                   manager directed contractors to perform work without the
                                   required authority. As a result, the Postal Service paid a
                                   contractor over $1.3 million for work which was not properly
                                   authorized. In addition, the Postal Service is at risk of being
                                   billed an additional $11.2 million by this contractor for other
                                   unauthorized work. Postal Service officials stated that the
                                   senior manager might have believed he had contracting

1
  The first report, Mail and Other Items Missent to Mail Transport Equipment Service Centers, (report number TR-AR-
00-007), was issued on April 5, 2000. The second report, Adequacy of Mail Transport Equipment Service Centers
Network Internal Controls (report number TR-AR-01-001) was issued on October 31, 2000.
2
  Contracts are classified as undefinitized until contract terms and conditions can be negotiated. The Purchasing
Manual requires that letter contracts be definitized within 180 days of initiating contractor performance.




                                                         i
Contracting Practices for the Procurement                                            CA-AR-01-001
 of Mail Transport Equipment Services


                                authority because the roles, responsibilities, and authorities
                                of participants in the procurement cycle were not clear.

 Summary of                     We recommend the vice president, Purchasing and
 Recommendations                Materials, direct the contracting officer to renegotiate the
                                rates of two noncompetitive contracts, seek competition in
                                the award of contracts whenever possible, and clarify
                                existing policy on the roles, responsibilities, and authorities
                                of participants in the procurement cycle. Further, we
                                recommend the vice president, Purchasing and Materials
                                implement corrective actions he agreed to in response to
                                our March 31, 2000, report, including developing a process
                                to ensure buyers comply with the 180-day time period for
                                definitizing cost and performance deficiencies, and
                                controlling and documenting letter contract risks.

 Summary of                     Management generally agreed with the nine
 Management’s                   recommendations but did not agree with all of our findings.
 Comments                       Management agreed to work with its noncompetitive
                                contractor to reduce contract costs and to implement
                                improvements in seeking contract competition, issuing letter
                                contracts, and making unauthorized commitments.
                                However, management questioned our finding that it may
                                pay up to $53 million more to its noncompetitive contractor.
                                Management also disagreed with our conclusions regarding
                                the basis for the noncompetitive awards and that all the
                                contracts could have been awarded competitively, resulting
                                in more fair and reasonable contract prices overall. We
                                summarized these comments in the report and included the
                                full text of the comments in Appendix C.

 Overall Evaluation of          We evaluated management’s comments and believe we
 Management’s                   have presented a fair representation of contracting practices
 Comments                       used by the Postal Service to procure mail transport
                                equipment services. We conducted interviews, reviewed
                                contract file documents, and used statistical analysis to
                                evaluate contract data and conclude that Postal Service
                                may pay up to $53 million more to its noncompetitive
                                contractor. The details of our analysis have been shared
                                with individuals involved in the mail transport project and are
                                available for further review. We also conducted interviews
                                and reviewed all available data forming the basis for the
                                noncompetitive awards. As a result, we maintain that all the




                                                  ii
Contracting Practices for the Procurement                                        CA-AR-01-001
 of Mail Transport Equipment Services


                                contracts could have been awarded competitively, resulting
                                in more fair and reasonable contract prices overall.
                                Because management's planned or implemented actions
                                are responsive and address the issues identified in this
                                report, no further action is required.




                                                iii
Contracting Practices for the Procurement                                           CA-AR-01-001
 of Mail Transport Equipment Services


                                        INTRODUCTION
 Background                     On May 13, 1992, the Postal Service awarded a contract for
                                Contractor A to establish and operate a pilot mail transport
                                equipment service center in Greensboro, North Carolina.
                                The pilot center contract was completed on
                                February 28, 1999, after which Postal Service officials
                                requested Contractor A to prepare a statement of work that
                                could be used to solicit bids for competitive contracts.
                                Subsequently, Postal Service officials awarded two
                                noncompetitive contracts to Contractor A.

                                The first contract was awarded in December 1997 to
                                operate a mail transport equipment service center. The
                                second contract was awarded in February 1998 to establish
                                an integration service center to provide management
                                support and an integrated system of collecting and
                                analyzing production data for all of the equipment service
                                centers. In September 1998, Postal Service officials
                                competitively awarded six more contracts to four other
                                companies to establish and operate mail transport
                                equipment service centers. Finally, in May 1999, the Postal
                                Service awarded a third noncompetitive contract to
                                Contractor A to operate another equipment service center.

                                The mail transport equipment service centers were
                                established to process, repair, store, and distribute mail
                                transport equipment, such as pallets, mailbags, trays, and
                                containers. The service centers were divided into eight
                                clusters with three centers per cluster except for cluster
                                eight, which has only one center.

                                The following table lists the eight contracts awarded to
                                establish and operate the service centers and the
                                integration service contract. The contracts were issued for
                                a 5-year period, except the contract for cluster eight, which
                                is for 3 1/2 years.




                                                 1
Contracting Practices for the Procurement                                                CA-AR-01-001
 of Mail Transport Equipment Services




                                            Cluster                     Competitive/      Contract
                         Contractor         Number        Award Date   Noncompetitive      Value

                               A             7            12-28-97     Noncompetitive    $267,078,746
                                        Integration
                              A          Contract          2-13-98     Noncompetitive     $ 62,006,891
                              B              1             9-18-98      Competitive       $169,000,299
                              C              2             9-18-98      Competitive       $136,732,627
                              D              3             9-18-98      Competitive       $139,904,696
                              E              4             9-18-98      Competitive       $ 99,829,082
                              D              5             9-18-98      Competitive       $105,111,849
                              B              6             9-18-98      Competitive       $140,502,459
                              A              8             5-10-99     Noncompetitive     $ 38,800,000
                                                                           Total        $1,158,966,649


 Objectives, Scope,             Our objective was to evaluate the contracting practices used
 and Methodology                to procure services for the mail transport equipment service
                                center project. We reviewed contract files and contractor
                                invoices for the five contractors, and reviewed Postal
                                Service procurement and purchasing policies and
                                procedures. In addition, we interviewed headquarters
                                contracting personnel responsible for contract award and
                                administration. Our review was conducted from
                                December 1999 through February 2001 in accordance with
                                generally accepted government auditing standards, and
                                included such tests of internal controls as were considered
                                necessary under the circumstances. We discussed our
                                recommendations with appropriate management officials
                                and included their comments where appropriate.

 Prior Audit Coverage           We conducted a review and issued a management advisory
                                report on contract audit practices, report number CA-MA-00-
                                001, dated March 31, 2000, where we noted that the Postal
                                Service issued letter contracts that could result in increased
                                costs and performance deficiencies. We suggested and the
                                vice president, Purchasing and Materials agreed to:

                                    •	 Develop a process to ensure buyers comply with the
                                       180-day time period for defining contract terms and
                                       conditions.




                                                      2
Contracting Practices for the Procurement                                           CA-AR-01-001
 of Mail Transport Equipment Services



                               •	   Include required controls in letter contracts to reduce
                                    cost and performance deficiencies.

                               •	   Document contract risks when using letter contracts.

                                In addition, the Postal Inspection Service conducted five
                                audits relating to Mail Transport Equipment Service Center
                                contracting issues. These reports are summarized in
                                Appendix A.




                                                  3
Contracting Practices for the Procurement                                          CA-AR-01-001
 of Mail Transport Equipment Services


                                        AUDIT RESULTS
 Noncompetitive                 We found the Postal Service had issued noncompetitive
 Contract Awards                contracts at higher prices than competitive contracts and
                                that the noncompetitive contracts were not justified
                                according to Postal Service requirements. The Postal
                                Service may be able to reduce the cost of these contracts
                                through negotiations with the contractor. We also observed
                                that these noncompetitive contracts were awarded as letter
                                contracts, which might have exposed the Postal Service to
                                increased cost and performance risks.

 Contract Costs                 We compared the noncompetitive contract prices for
                                clusters seven and eight awarded to Contractor A with the
                                prices for the six competitive contracts awarded to other
                                contractors to establish and operate clusters with the same
                                or similar volume and services. Based on the estimated
                                processing volumes in the contracts, the noncompetitive
                                contracts were at least $53 million more over the life of the
                                contracts than the competitive contracts for the same or
                                similar volume and type of equipment processed.

                                Postal Service officials defended their award of more costly
                                noncompetitive contracts, stating that Contractor A’s
                                proposed prices were more realistic than the competitive
                                contractors’ cost proposals, which may have been priced
                                too low to win contract awards. However, this argument
                                was not supported by pricing proposals submitted by
                                Contractor A. For instance, Contractor A proposed
                                significantly higher prices for the cluster seven
                                noncompetitive contract, but proposed lower prices for
                                cluster eight noncompetitive contract which was awarded
                                after competitive contract awards for clusters one through
                                six.

 Justification for              In accordance with section 1.7.1 of the Purchasing Manual,
 Contracts                      purchases valued at more than $10,000 (the competitive
                                threshold) must be made on the basis of adequate
                                competition whenever appropriate. It further states that
                                adequate competition need not be obtained for purchases
                                subject to noncompetitive procedures in section 3.5.5. Also,
                                in accordance with section 3.5.5 of the Purchasing Manual
                                and Management Instruction AS-710-97-1, the Postal
                                Service completed a "Justification for Noncompetitive
                                Purchases" for the three noncompetitive contracts. The




                                                 4
Contracting Practices for the Procurement                                            CA-AR-01-001
 of Mail Transport Equipment Services


                                justification stated that only one source was available, and
                                that awarding the contract to Contractor A was in the best
                                interest of the Postal Service.

                                Despite prequalifying 17 competitive sources, contracting
                                officials justified the noncompetitive contracts by stating that
                                Contractor A was the only supplier with the knowledge and
                                experience to bring the first three mail transport equipment
                                service centers on-line in a timely manner, due to the
                                contractor’s operation of the pilot site. However, within
                                nine months after Contractor A received the noncompetitive
                                contract to operate cluster seven, the Postal Service
                                awarded six competitive contracts to other companies to
                                operate clusters one through six. Further, the Postal
                                Service awarded another noncompetitive contract to
                                Contractor A eight months later, to establish and operate an
                                equipment service center in Greensboro, North Carolina-
                                cluster eight.

                                In addition, according to Postal Service contracting officials
                                and documentation in the contract files, Postal Service
                                officials wanted to give Contractor A noncompetitive
                                contracts in exchange for writing the statement of work used
                                by the Postal Service to award the competitive contracts.
                                Based on an email from the Postal Service purchasing
                                manager to the contracting officer, Postal Service
                                contracting officials believed Contractor A stood the chance
                                of being awarded several future competitive contracts, and
                                thus agreed to award Contractor A at least one cluster,
                                noncompetitively, provided Contractor A did not bid on the
                                later competitive contracts.

                                Based on a review of these events, we believe all of the
                                contracts to operate clusters could have been awarded
                                competitively, resulting in more fair and reasonable contract
                                prices overall.

 Cost Savings Analysis	         At the time of our audit, Postal Service management
                                requested the contracting officer provide a termination
                                analysis of the mail transport equipment service center
                                project to help management determine its future direction.
                                The analysis was performed on January 12, 2000, and
                                included all on-going mail transport equipment service
                                center contracts. The analysis indicated the Postal




                                                 5
Contracting Practices for the Procurement                                           CA-AR-01-001
 of Mail Transport Equipment Services


                                Service would incur an estimated $24.7 million in costs to
                                terminate the portion of the project involving the three
                                noncompetitive contracts with Contractor A.

                                Based on the Postal Service’s termination analysis, the
                                Postal Service would not realize savings if the
                                noncompetitive contracts for clusters seven and eight were
                                terminated and recompeted. Conversely, the OIG did a
                                comparison of what the Postal Service could potentially
                                receive in the form of cost reductions if they were able to
                                renegotiate contract rates with Contractor A to be consistent
                                with the rates in the competitive contracts. Under this
                                scenario, we determined the Postal Service could potentially
                                receive about $10.6 million in cost reductions for cluster
                                seven. See Appendix B for our comparative analysis.

 Recommendations                We offer the following recommendations.

                                We recommend the vice president, Purchasing and
                                Materials:

                                1. Renegotiate Contractor A's rates for cluster seven.

 Management’s                   Management agreed to raise the report’s findings on pricing
 Comments                       with the supplier and to work with the supplier on supply
                                chain management opportunities for cost reductions.
                                However, management questioned the validity of the
                                $53 million more that it may pay Contractor A than the
                                competitive contractors because management stated that
                                competition for clusters seven and eight were not feasible
                                and Contractor A’s proposed prices were audited by the
                                Inspection Service. Management believes Contractor’s A’s
                                prices were more likely higher than competitive prices
                                because Contractor A operated in higher cost labor areas
                                resulting in higher fringe benefit rates and lease costs.

 Evaluation of                  Management’s comments are responsive to our
 Management’s                   recommendations. However, The OIG does not agree with
 Comments                       management’s comments and believes that the $53 million
                                is valid and supported. In addition, during the course of our
                                audit, we shared the details of our analysis with the logistics
                                manager, Mail Transport Equipment Service Center
                                program manager, and operational equipment purchasing
                                manager, to validate our findings. Our analysis included:




                                                 6
Contracting Practices for the Procurement                                             CA-AR-01-001
 of Mail Transport Equipment Services


                                    •	 Comparing Contractor A’s prices with competitive
                                       prices and factoring in volume and local cost
                                       adjustments on a five-year contract period of
                                       performance.

                                    •	 Comparing Contractor A’s contract volumes and cost
                                       for the predominately utilized labor category with that
                                       of competitive contractors.

                                    •	 Assessing what it would cost the competitive
                                       contractor to perform the same services

                                In addition, the OIG disagrees with the assessment that
                                competition for clusters seven and eight were not feasible,
                                because the Postal Service awarded cluster seven
                                noncompetitively at the same time it prequalified
                                17 competitive sources. The fact that the 17 sources were
                                prequalified at the time of award of cluster seven proved
                                that the Postal Service was aware of other sources that
                                could provide the requested services. Therefore, the OIG
                                does not believe the noncompetitive justification for award
                                to contractor A is accurate.

                                In conclusion, we determined that Contractor A’s prices
                                would likely result in $10.6 million in potential savings if the
                                Postal Service renegotiated the noncompetitive rates for
                                cluster seven to be more in line with competitive rates.




                                                  7
Contracting Practices for the Procurement                                          CA-AR-01-001
 of Mail Transport Equipment Services



 Recommendation 	               We recommend the vice president, Purchasing and
                                Materials:

                                2. 	 Ensure contracting officers adequately seek competition
                                     in the award of contracts whenever possible, in
                                     accordance with the Purchasing Manual and
                                     Management Instruction AS-710-97-1, Justification for
                                     Noncompetitive Purchases.

 Management’s                   While management agreed with our recommendation to
 Comments                       seek competition in the award of contracts whenever
                                possible, management stated that competition was not
                                feasible for clusters seven and eight although they realize
                                that noncompetitive purchases generally result in higher
                                pricing than competitive pricing.


                                In addition, management believes that our statement “. . .
                                that all of the contracts to operate clusters could have been
                                awarded competitively, resulting in more fair and reasonable
                                contract prices overall” is misleading because it does not
                                consider the timing of the noncompetitive awards and the
                                benefits obtained by doing them. Management also
                                indicated that nowhere in the detailed justification for
                                clusters seven and eight do they base noncompetitive
                                awards on an exchange for writing the Statement of Work
                                used by them to award the competitive contracts, as the
                                report indicates. They also indicated that it appears that a
                                single piece of correspondence was used to arrive at this
                                conclusion.

                                Additionally, management indicated the fact that none of the
                                sites would have been operational at the time the
                                Greensboro operating and research contract with Contractor
                                A expired, shows that there were no inconsistencies with
                                the noncompetitive award of cluster seven and eight, and
                                the competitive award of clusters one through six.

 Evaluation of                  While management believes competition was not feasible
 Management’s                   for clusters seven and eight, we question their position
 Comments                       based on the timing of the contract awards, documentation
                                reviewed, and interviews conducted. The OIG disagrees
                                with the assessment that the OIG did not consider the
                                timing of the award of cluster seven, because the Postal




                                                 8
Contracting Practices for the Procurement                                             CA-AR-01-001
 of Mail Transport Equipment Services


                                Service awarded cluster seven noncompetitively at the
                                same time it prequalified 17 competitive sources. The fact
                                that the 17 sources existed at the time of award of cluster
                                seven, proves that the Postal Service did not meet its
                                requirement for noncompetitive justification on the basis that
                                only one source was capable of providing this service.
                                Further, after awarding six clusters competitively, the Postal
                                Service awarded cluster eight noncompetitively to
                                Contractor A. Therefore, the OIG did consider the timing of
                                the award of clusters seven and eight.

                                Finally, we disagree that the award was not made to
                                compensate the contractor for writing the Statement of Work
                                for the competitive contracts, and that our conclusion is
                                based on a single piece of correspondence. This
                                conclusion was based on:

                                    •	 Documented information obtained during a meeting
                                       with Contractor A’s Chief Executive Officer.

                                    •	 Electronic correspondence between contracting
                                       officer, program manager, and legal counsel.

                                    •	 Information obtained during interviews with the
                                       contracting officer and procurement specialists.

                                    •	 Documentation included in the contract file.

                                Even though the Postal Service does not believe there were
                                inconsistencies in the award of cluster seven and eight, the
                                OIG has overwhelming evidence corroborated by several
                                sources that support our conclusion on the noncompetitive
                                awards to Contractor A.




                                                 9
Contracting Practices for the Procurement                                           CA-AR-01-001
 of Mail Transport Equipment Services



 Use of Letter                  We also determined the three noncompetitive contracts for
 Contracts                      Contractor A were issued as letter contracts, which were not
                                definitized within the time frames required by Postal Service
                                policy. Postal Service's Purchasing Manual requires that
                                letter contracts be definitized within 180 days of initiating
                                contractor performance, except in extreme cases. In these
                                cases the manual requires contract definitization before
                                completion of 40 percent of the work. According to
                                contracting personnel, a lack of procurement personnel and
                                inadequate procurement planning caused the contracts to
                                remain undefinitized until after the contractor began
                                performance. The following chart shows the dates the letter
                                contracts were awarded and the number of months it took to
                                definitize them.

                                                                  Contract          Number of
                                    Letter Contract Date        Definitization      Months to
                                                                    Date            Definitize
                                            12-24-97                6-2-99          18 months
                                            2-13-98                 9-3-99          19 months
                                            5-10-99                2-12-00           9 months

 Recommendations                We recommend the vice president, Purchasing and
                                Materials, implement the following corrective actions that he
                                agreed to in response to our March 31, 2000, report:

                                3. 	 Develop a process to ensure buyers comply with the
                                     180-day time period for definitizing contract terms and
                                     conditions.

                                4. 	 Include required controls in letter contracts to reduce
                                     cost and performance deficiencies.

                                5. 	 Document contract risk when using letter contracts.

 Management’s                   Management agreed with our findings and
 Comments                       recommendations for letter contracts but stated that the
                                three letter contracts awarded to Contrator A were justified
                                and executed before they implemented improvements as a
                                result of our prior report, Contract Audit Practices, issued
                                March 31, 2000. Management stated that approvals are
                                now required before issuing undefinitized actions and that
                                contracting officers must document the reasons for using
                                undefinitized actions, including associated risks and




                                                       10
Contracting Practices for the Procurement                                            CA-AR-01-001
 of Mail Transport Equipment Services



                                appropriate controls. Further, management stated that a
                                risk assessment is now required in all requests to enter into
                                letter contracts.

 Evaluation of                  Management’s comments are responsive to our
 Management’s                   recommendations. While our report does not question
 Comments                       whether the letter contracts were justified, we determined
                                that it took from 9 to 19 months to definitize letter contracts,
                                well beyond the 180-day requirement. Because of cost and
                                performance risks associated with letter contracts, Postal
                                Service should minimize its use and include required
                                controls in letter contracts.




                                                 11
Contracting Practices for the Procurement                                           CA-AR-01-001
 of Mail Transport Equipment Services



 Unauthorized                   As part of the audit, we also determined that the manager of
 Commitments                    the mail transport equipment service center program
                                directed all five contractors to perform $12.5 million in
                                additional work without the contracting authority required by
                                Postal Service purchasing regulations. The additional
                                services included improved order fulfillment, such as
                                expedited production, expanded personnel substitutions,
                                travel, additional shift coverage, additional information
                                systems, upgraded products and forms, and other
                                upgrades. These services were added prior to negotiations
                                to definitize the February 1998 letter contract for integration
                                services.

                                Postal Service officials stated the contracting officer was
                                present at status meetings when additional work had been
                                discussed with the contractor, but could not support their
                                statements through documented meeting notes or
                                discussions with the contracting officer. In fact, the
                                contracting officer told us she attended some of the
                                meetings, but did not recall discussions of any changes.
                                Regardless, on September 30, 1999, the Postal Service
                                issued modification 12 allowing Contractor A to be paid
                                $1.3 million in incurred costs for the additional services, and
                                to bill the Postal Service potentially for $11.2 million for
                                unauthorized work requested by the program manager.

                                The program manager also requested all five contractors to
                                acquire additional warehouse space to store Postal Service
                                equipment without the required contracting authority. The
                                equipment was to be used by all contractors performing
                                work in support of the mail transport equipment service
                                centers and resulted in over $2.9 million in unauthorized
                                commitments. Subsequently, the contracting officer
                                approved the added $2.9 million in warehouse space
                                through a modification to the contracts.




                                                 12
Contracting Practices for the Procurement                                           CA-AR-01-001
 of Mail Transport Equipment Services


                                The following table presents the billings submitted by all
                                five contractors.

                                                                              Billings For
                                                                               Additional
                                    Contractor         Cluster Number       Warehouse Space

                                            C                 2                $141,480
                                            D                 3                $866,880
                                            E                 4                $161,376
                                            D                 5                $540,540
                                                                               $261,096
                                        B                     6                $382,500
                                        A                     7                $585,114
                                       Total                                  $2,938,986

 Contracting Authority 	        The Purchasing Manual vests contracting authority in the
                                contracting officer, and not in the program manager. The
                                program manager is responsible for the project and is the
                                supervisor of the contracting officer’s representative. In this
                                capacity, he assists the contracting officer in managing the
                                contracts and has authority to provide technical direction to
                                the contractor.

                                Section 6.1.1 of the Purchasing Manual states that the
                                contracting officer may appoint a representative to perform
                                any administrative function that does not involve a change
                                in the scope of work, specifications, or cost or duration of
                                contract performance. Further, section 6.2.3 of the manual
                                states that the contracting officer may authorize one or more
                                representatives to provide technical direction, but the
                                authorization must specifically alert them to the prohibition
                                on ordering changes in the work affecting schedule, price,
                                or quality.

                                Purchasing specialists indicated that Postal Service
                                contracting staff believed the program manager could, in
                                fact, request contractors to perform additional work outside
                                the scope of contracts. Thus, confusion among Postal
                                Service officials about who can direct contract changes may
                                have led to the unauthorized commitments.




                                                 13
Contracting Practices for the Procurement                                           CA-AR-01-001
 of Mail Transport Equipment Services


 Audit Assistance               The Postal Service is in the process of determining how
                                much of the $11.2 million in additional unauthorized work it
                                will accept and fund. To assist in this determination, the
                                OIG initiated an audit of Contractor A's proposal for
                                unauthorized work. However, the audit has been delayed
                                because the contractor’s proposal does not adequately
                                segregate costs between the statement of work for the
                                original contract and the additional unauthorized services
                                being performed.

 Recommendations 	              We recommend the vice president, Network Operations
                                Management:

                                6. 	 Notify the program manager that he is in violation of
                                     purchasing regulations and instruct him to cease
                                     making unauthorized contract commitments.

 Management’s 	                 Management agreed with our findings and
 Comments 	                     recommendations. Management stated it has instructed the
                                program manager to comply with Postal Service purchasing
                                regulations.

 Evaluation of                  Management’s comments are responsive to our 

 Management’s                   recommendations. 

 Comments 


 Recommendation 	               We recommend the vice president, Purchasing and
                                Materials.

                                7. 	 Clarify to Postal Service employees the existing policy
                                     on the roles, responsibilities, and authorities of
                                     participants in the procurement cycle.


 Management’s 	                 Management agreed to remind purchasing specialists of
 Comments 	                     contracting officer and contracting officer’s representative
                                authorities and to address contract authority in every post
                                award meeting with contractors.

 Evaluation of                  Management’s comments are responsive to our 

 Management’s                   recommendations. 

 Comments 





                                                 14
Contracting Practices for the Procurement                                          CA-AR-01-001
 of Mail Transport Equipment Services



 Recommendation 	               We recommend the vice president, Purchasing and
                                Materials:

                                8. 	 Direct the contracting officer to require the
                                     noncompetitive contractor to segregate costs between
                                     integration services included in the statement of work
                                     and additional services being performed by the
                                     contractor.

 Management’s 	                 Management agreed and stated it has already required
 Comments 	                     Contractor A to segregate its costs and that Postal Service’s
                                Contract Pricing Division is currently auditing the costs to
                                ensure fair and reasonable pricing is obtained.

 Evaluation of                  Management’s comments are responsive to our 

 Management’s                   recommendations. 

 Comments 


 Recommendation 	               We recommend the vice president, Purchasing and
                                Materials:

                                9. 	 Consider the results of our audit in deciding whether to
                                     ratify the unauthorized commitments and take
                                     appropriate action in accordance with Management
                                     Instruction AS-710-1999-2.

 Management’s                   Management agreed, stating they would ensure that the
 Comments                       unauthorized commitments are properly ratified.

 Evaluation of                  Management’s comments are responsive to our 

 Management’s                   recommendations. 

 Comments 





                                                15
Contracting Practices for the Procurement                                          CA-AR-01-001
 of Mail Transport Equipment Services


                      APPENDIX A. PRIOR AUDIT COVERAGE

                                The following audits were conducted by the Postal
                                Inspection Service:

                                1. Developmental Audit on Mail Transport Equipment
                                   Service Centers, Case Number 019-1223382-AX(1),
                                   dated March 26, 1999. The audit was conducted to
                                   determine the adequacy of planning and development of
                                   the Mail Transport Equipment Service Centers network.
                                   The audit revealed that processes and procedures had
                                   not been developed for monitoring and evaluating
                                   project performance relative to the reported Decision
                                   Analysis Review savings. The audit recommended that
                                   management implement an effective project
                                   performance measurement system to gauge
                                   management’s performance in achieving reported Mail
                                   Transportation Equipment Service Center project
                                   benefits. Management concurred with the finding and
                                   agreed to implement a method to measure customer
                                   satisfaction in achieving the project benefits.

                                2. Review of Mail Transportation Equipment Service Center
                                   Program, Case Number 072-1290929-SI(2) dated
                                   July 7, 1999. The review was performed to test the
                                   reasonableness of projected costs and/or savings
                                   presented in the Decision Analysis Report. The review
                                   reflected an error rate for transportation trips. The audit
                                   recommended the contractor maintain a database of
                                   each order and facility where an error occurred in
                                   transportation. Management agreed with the
                                   recommendations, and to implement procedures that will
                                   enable them to reduce the transportation errors.

                                3. Audit of Mail Transport Equipment Service Center
                                   Systems Integration and Management Price Proposal,
                                   Contract Number 102590-98-Z-0871, Case Number 181-
                                   1238483-AC(1), dated August 26, 1998. The audit was
                                   conducted to determine if proposed costs were
                                   acceptable for negotiating a fair and reasonable price.
                                   The audit resulted in $6.8 million of questioned costs.
                                   The contracting officer considered the audit results in
                                   negotiating a contract price.




                                                16
Contracting Practices for the Procurement                                        CA-AR-01-001
 of Mail Transport Equipment Services



                                4. Audit of Mail Transport Equipment Service Center
                                   Cluster eight Price Proposal Submitted for Contract
                                   Number 102590-98-A-0125, Case Number 181-
                                   1266103-AC(1), dated April 23, 1999. The audit was
                                   conducted to determine if proposed costs were
                                   acceptable for negotiating a fair and reasonable price.
                                   The audit resulted in $6.7 million of questioned costs
                                   and $1.7 million of unsupported costs. The contracting
                                   officer considered the audit results in negotiating a
                                   contract price.

                                5. Audit Report on the Evaluation of Price Proposal
                                   Submitted for Contract Number 102590-97-Z-1699,
                                   Case Number 181-1226701-AC(1), dated June 10,
                                   1998. The audit was conducted to determine if
                                   proposed costs were acceptable for negotiating a fair
                                   and reasonable price. The audit resulted in $24.6 million
                                   of questioned costs and $4.8 million of unsupported
                                   costs. The contracting officer considered the audit
                                   results in negotiating a contract price.




                                                17
Contracting Practices for the Procurement                                                                                           CA-AR-01-001
 of Mail Transport Equipment Services


            APPENDIX B. Mail Transport Equipment Service Centers Potential Cost Reduction
                           For Contractor A’s Operation of Cluster Seven
                                                                       Year 43

                                                        Estimated Contract              Potential Cost        Estimated          Material Handling
    Contractor      Site/Location         Cluster              Cost                      Reductions           Volumes            Laborer - Federal

A                Secacus, NJ                      7                  $13,927,918                                60,711,357                        $9.75
B                Springfield, MA                  1                  $10,766,878                                61,793,093                        $9.08
                                                                     $11,358,960            $2,568,958               0.982                       1.0744

A                Los Angeles, CA                  7                  $15,473,500                                70,958,338                       $13.64
D                Cincinnati, OH                   3                  $12,333,674                                69,603,624                       $12.91
                                                                     $13,284,713            $2,188,787               1.019                        1.057

A                Chicago, IL                      7                  $20,414,197                                91,371,948                     $12.30
B                Minneapolis, MN                  6                   $7,231,915                                26,867,252                     $13.26
B                San Francisco, CA                6                  $12,894,263                                65,878,774                     $12.04
                                                                     $20,126,178                                92,746,026                     $12.39
                                                                     $19,678,542              $735,655        0.985184508                 0.992462348
Table 1

3
 From the overall list of all contracts, we identified several contracts that were roughly similar in volume to the contracts for Contractor A. We tried to stay in the
general range on volume, in case there are, unknown to us, major differences in proposal pricing between large and small workload requirements. We were
unable to find a direct comparison for the largest Contractor A volume, and we had to combine two contracts to get into the same volume range. Then, we
examined the local labor rate for the material handling laborer to try to choose places that might nominally have similar location-related cost factors.
4
  The methodology for this table is an adjustment of the “comparable” contract to allow a direct comparison to the actual contract value for each Contractor A site.
The adjustment factors are shown for each comparison. For example, the local cost factor, represented by the labor rate, for the Secacus contract was 1.074
times as large as that for Springfield, but the volume was considerably less for Secacus than for Springfield, by a factor of 0.982. Multiplying these two factors, the
volume adjustment, and the local cost adjustment, by the Springfield contractor proposal cost suggests that the Springfield contractor’s competitive proposal for
Secacus would likely have been on the order of $11.4 million. This methodology was applied to each pairing to calculate a reasonable competitive contract cost
for each of the Contractor A locations. In the case of the combined comparison to the Chicago location, the combined local cost factor is the weighted average of
the Minneapolis and San Francisco rates; the individual volumes are the weighting factor. The potential cost reduction is the difference between the actual
Secacus contract cost and the calculated competitive contract cost.




                                                                                   18
Contracting Practices for the Procurement                                                                                     CA-AR-01-001
 of Mail Transport Equipment Services



                                                                           Year 5

                                                           Estimated Contract            Potential Cost      Estimated      Material Handling
    Contractor         Site/Location        Cluster               Cost                    Reductions         Volumes        Laborer - Federal

A                  Secacus, NJ                       7                 $13,832,501                            61,701,309                 $9.75
B                  Springfield, MA                   1                 $10,724,540                            63,189,406                 $9.08
                                                                       $11,244,692              $2,587,809         0.976                 1.074

A                  Los Angeles, CA                   7                 $15,476,377                            72,992,650                $13.64
D                  Cincinnati, OH                    3                 $12,451,115                            71,816,512                $12.91
                                                                       $13,370,609              $2,105,768         1.016                 1.057

A                  Chicago, IL                       7                 $19,819,905                             91,146,368               $12.30
B                  Minneapolis, MN                   6                  $7,283,701                             27,249,006               $13.26
B                  San Francisco, CA                 6                 $12,968,870                             67,585,406               $12.04
                                                                       $20,252,571                             94,834,412               $12.39
                                                                       $19,322,720                $497,185   0.961110699           0.992692363

                                                         YEAR 4 & 5 POTENTIAL REDUCTION

A                  Secacus, NJ                           2-yr potential reduction               $5,156,768
A                  Los Angeles, CA                       2-yr potential reduction               $4,294,555
A                  Chicago, IL                           2-yr potential reduction               $1,232,840

                                                         TOTAL                               $10,684,1625

Table 2




5
    Contractor A’s total potential cost savings for cluster seven in years four and five of the contract.




                                                                                      19
Contracting Practices for the Procurement              CA-AR-01-001
 of Mail Transport Equipment Services


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                            20
Contracting Practices for the Procurement        CA-AR-01-001
 of Mail Transport Equipment Services




                                            21
Contracting Practices for the Procurement        CA-AR-01-001
 of Mail Transport Equipment Services




                                            22
Contracting Practices for the Procurement        CA-AR-01-001
 of Mail Transport Equipment Services




                                            23
Contracting Practices for the Procurement        CA-AR-01-001
 of Mail Transport Equipment Services




                                            24
Contracting Practices for the Procurement        CA-AR-01-001
 of Mail Transport Equipment Services




                                            25
Contracting Practices for the Procurement        CA-AR-01-001
 of Mail Transport Equipment Services




                                            26
